No. 21-82
IN THE SUPREME COURT OF THE UNITED STATES
_________________
ALPINE SECURITIES CORPORATION, PETITIONER
v.
SECURITIES AND EXCHANGE COMMISSION
_______________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION via e-mail and first-class mail,
postage prepaid, this 4th day of October 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contain 7,591 words,
excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d). I declare
under penalty of perjury that the foregoing is true and correct. Executed on
October 4, 2021

Brian H. Fletcher
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
October 4, 2021
Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Case
Management Supervisor, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.
Thank you for your consideration of this request.

21-0082
ALPINE SECURITIES CORPORATION
SECURITIES AND EXCHANGE COMMISSION

BRENT R. BAKER
PARSONS, BEHLE & LATIMER
201 SOUTH MAIN STREET
SUITE 1800
SALT LAKE CITY, UT 84111
MARANDA E. FRITZ
MARANDA E. FRITZ PC
335 MADISON AVENUE
NEW YORK, NY 10017
ROBERT MARK LOEB
ORRICK, HERRINGTON & SUTCLIFFE
1152 15TH STREET, NW
WASHINGTON, DC 20005-1706
202-339-8400
RLOEB@ORRICK.COM
SEAN MAROTTA
HOGAN LOVELLS US LLP
555 THIRTEENTH STREET, NW
WASHINGTON, DC 20004
202-637-5600
SEAN.MAROTTA@HOGANLOVELLS.COM
RUSSELL G. RYAN
KING & SPALDING LLP
1700 PENNSYLVANIA AVE., NW
SUITE 200
WASHINGTON, DC 20006
202-661-7984
RRYAN@KSLAW.COM

